No. 21-116

 

 

 

In The
Supreme Court of the United States

STATE OF MISSOURI EX REL.
MICHALENE HAGAN,
Petitioner,
v.
THE HONORABLE DAVID ASH AND
THE HONORABLE GREGORY ALLSBERRY,
Respondents.

On Petition for a Writ of Certiorari
to the Missouri Supreme Court

CERTIFICATE OF SERVICE!

Pursuant to Supreme Court Rules 29.3 and 29.5(b), I, Louis R. Horwitz, a member of
the Bar of this Court, hereby certify that, on this 25th day of August, 2021, with
respect to the Motion of the Petitioner to Drop and Add a Party pursuant to Rule 21,
the following party has been served three (3) copies of the Petition for a Writ of
Certiorari in this matter through the United States Postal Service by first-class mail,
postage prepaid, to the address below and an electronic version of said Petition was
transmitted to the referenced email address.

Respondent:

The Honorable Milan Berry,
Associate Circuit Judge

Pike County Courthouse

115 W. Main St.

Bowling Green, MO 63334

Tel: 573-324-5582

Fax: 573-324-3150

Email: milan.berry@courts.mo.gov

1 This Certificate of Service consists of two pages.

1
Louis R. Horwitz

Counsel of Record
Lou Horwitz L.L.C.
1 Mid Rivers Mall Drive
Suite 280
St. Peters, MO 63376
Tel: 636-279-1532
Fax: 636-279-1632
LouHorwitzLLC@att.net

Attorney for Petitioner
